<html>
<title> - [H.A.S.C. No. 111-135]LEGISLATIVE PRIORITIES IN SUPPORT OF FAMILIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     


                         [H.A.S.C. No. 111-135]

 
                   LEGISLATIVE PRIORITIES IN SUPPORT
                              OF FAMILIES

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 15, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-699                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                Mike Higgins, Professional Staff Member
               Jeanette James, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Monday, March 15, 2010, Legislative Priorities in Support of 
  Families.......................................................     1

Appendix:

Monday, March 15, 2010...........................................    21
                              ----------                              

                         MONDAY, MARCH 15, 2010
             LEGISLATIVE PRIORITIES IN SUPPORT OF FAMILIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Cohoon, Dr. Barbara, Government Relations Deputy Director, 
  National Military Family Association...........................     4
Hruska, Kelly, Government Relations Deputy Director, National 
  Military Family Association....................................     4
Moakler, Kathleen B., Government Relations Director, National 
  Military Family Association....................................     3
Savant, Katie, Government Relations Deputy Director, National 
  Military Family Association....................................     5
Wheeler, Candace, Government Relations Deputy Director, National 
  Military Family Association....................................     5

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    25
    Moakler, Kathleen B., joint with Dr. Barbara Cohoon, Kelly 
      Hruska, Candace Wheeler, and Katie Savant..................    28
    Wilson, Hon. Joe.............................................    26

Documents Submitted for the Record:

    [There are were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
             LEGISLATIVE PRIORITIES IN SUPPORT OF FAMILIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                            Washington, DC, Monday, March 15, 2010.
    The subcommittee met, pursuant to call, at 5:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon, everybody. Let me just get my 
sea legs for two seconds, having just flown in, but I really 
appreciate your all being here. This is such an important topic 
and we are pleased that such a broad group of folks from the 
Military Family Association, with your expertise and help and 
support, could be with us. We are looking forward to this 
hearing. Thank you.
    The hearing will come to order.
    The focus of today's hearing is a review of the priority 
legislative initiatives needed to support military families, 
and we have asked the National Military Family Association, the 
association with the greatest expertise regarding family 
issues, to help us understand how the Congress can best assist 
our military families.
    This hearing follows a subcommittee hearing on March 9, 
just last week, that featured researchers from the RAND 
Corporation and the Army War College, who related the 
conclusions of two studies to assess the effects of deployment 
on military children. The RAND study, as you know, was 
sponsored by the National Military Family Association, and I 
want to congratulate the association for investing in an 
excellent study that advanced our knowledge of the toll that 
war exacts from the children of those that serve.
    This is the second of our hearings scheduled to last for 
the one hour that is available to us prior to our votes at 
6:30, so I would ask you to remain mindful of that.
    I think this is a terribly important topic, and as I read 
through all of your comments and the work that you have put 
into it, it may be that we need to go on and schedule again, 
but I know trying to get here are at 5:30 isn't always easy 
from California; so we will do what we can.
    I also wanted to thank you for the emphasis that you had on 
mental health and for looking at the whole family because I 
think those are very important issues. I think we have 
addressed it to a limited extent, but I am hoping that 
throughout the discussion that we can focus on it some more.
    I want to welcome our witnesses: Mrs. Kathleen Moakler, 
Government Relations Director, and I know you have been in that 
place for a long time. Thank you. Dr. Barbara Cohoon, 
Government Relations Deputy Director; Ms. Kelly Hruska, 
Government Relations Deputy Director as well; Mrs. Candace 
Wheeler, also Government Relations Deputy Director; and Ms. 
Katie Savant, a Government Relations Deputy Director also.
    So once again thank you so much and I know Mr. Wilson that 
you will have a comment. Thank you.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 25.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis, for holding this 
hearing and thank each of you for being here today. We 
certainly appreciate all of your service on behalf of military 
families.
    Meeting the needs of military families continues to be 
challenging and complex. We are a nation at war fighting on two 
fronts and the strains of those wars translate directly and 
immediately to the families of members of the armed forces. 
When the military family unit is disrupted by deployment of a 
key member of the family, a host of issues arise that stress 
all aspects of family life--physical and mental health, 
personal finances, interpersonal relationships just to name a 
few.
    With two sons having served in Iraq and another in Egypt, I 
know the challenges. This subcommittee, the Department of 
Defense, and the military services have taken a number of 
initiatives to address the needs of military families. Yet 
there remains evidence much more needs to be done and the 
system of support that has been created may not be adequately 
meeting the needs of military families.
    Last week we heard testimony on the results of two studies 
that looked at the effects on military children who have 
deployed parents. Thankfully, these studies seem to suggest our 
military children are more resilient than we could expect. With 
that said, it is also clear that the well-being of our children 
is affected by the stability of their family and the emotional 
strength of the non-deployed parent among other factors.
    While I appreciate the Department of Defense and military 
services are committed to assisting and supporting military 
families, I am not convinced the right services are getting to 
the right family members at the right time. I am also concerned 
the provisions of family support services are not always 
completely coordinated and integrated. I am also interested in 
hearing from our witnesses how effective the coordination and 
integration effort is. I am also interested in hearing where we 
must provide additional effort in the form of policy and 
resources to improve what is already being done.
    With that, Madam Chairwoman, I join you in welcoming our 
witnesses and I look forward to the testimony.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 26.]
    Mrs. Davis. Thank you, Mr. Wilson.
    I know that you have a plan to present a rather quick 
overview and we look forward to that. Thank you.
    Mrs. Moakler, if you would like to begin.

    STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Mrs. Moakler. Thank you. Chairwoman Davis, Ranking Member 
Wilson, and other distinguished committee members, thank you 
for the opportunity to speak today on behalf of military 
families, our nation's families. Many families are facing their 
eighth year of deployments. Many have dealt with multiple 
deployments. We have second graders who have lived with a 
parent absent from their lives for months at a time over and 
over again. It is the only life they know. We appreciate the 
many initiatives and programs supported by this subcommittee in 
years past for our service members, retirees, their families, 
and their survivors. They have become part of the overall 
fabric of family readiness.
    The challenge that now faces us is making sure that our 
family readiness programs receive sustained funding and are 
included in the annual budget process. With budget cuts and 
shortfalls looming, we should not randomly reduce funding to 
family programs and services across the board. Service members 
and their families cite morale, welfare, and recreation (MWR) 
programs like gyms, libraries, and other installation-provided 
service as important to their well-being during deployments. 
Substantial cuts to these programs make them wonder why 
services talk about support yet often cut or reduce the same 
programs that are identified as the most important by our 
families.
    One of the ways to evaluate the efficacy of programs is 
research. In May 2008, we commissioned the RAND Corporation to 
do a longitudinal study on the experience of 1,500 families. 
You had the opportunities to hear the result of that study in a 
hearing last week. Our role now is to determine how we use 
these findings to target support to enhance the strength of 
military families. If total months deployed matter, how do we 
maintain health in the families that are doing okay--that is 70 
percent--as they experience more deployments? How do we target 
programs to meet the needs of families of school-aged children 
while not diminishing support for families with younger 
children? How do we engage those who interact with older youth, 
especially girls, with additional information and resources?
    How do we foster relationships between deployed parents, 
at-home caregivers and older children to facilitate healthy 
reintegration? And how do we help caregivers of older children 
and youth strike a work/life balance? What can Congress, 
Department of Defense (DOD), and communities do to help in this 
effort? Ensure funding for military family programs consistent 
with the demands created by eight plus years of war; fund YMCA 
memberships for teams and families through the existing DOD 
contract for at least six months post-deployment; develop 
effectiveness measures for all family programs; identify and 
replicate best practices, camping programs, community outreach, 
and a focus on reintegration.
    And, as a point of information, we have had 2,552 
applications submitted since our Operation Purple site opened 
this morning.
    We also need to publicize resources available to support 
military families and engage nonprofits to identify and meet 
needs of local military families.
    The National Military Family Association for our part is 
going to gather the best minds at a summit in May to engage in 
a national conversation focused on military children and 
families. We hope to develop recommendations into a blueprint 
for action. And now we will hear from Dr. Cohoon.

 STATEMENT OF DR. BARBARA COHOON, GOVERNMENT RELATIONS DEPUTY 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Dr. Cohoon. Chairman Davis, Ranking Member Wilson, and 
distinguished members of this subcommittee, health care access 
continues to be an issue. The recent implementation and then 
deferment of Medicare reimbursement rate cuts has only 
heightened our military families' access concerns. Our 
Association asserts that behind every wounded service member is 
a wounded family. As the war continues, families are also 
experiencing their own invisible wounds and their need for 
behavioral health services will remain high even after military 
operations scale down. We appreciate the inclusion of service 
member caregiver compensation in the National Defense 
Authorization Act (NDAA) fiscal year 2010; however, we believe 
this provision did not go far enough. Compensation should be a 
priority. Current law creates a potential gap in compensation 
following transition and did not include training, health care, 
and expanded respite care benefits.
    In order for caregivers to perform their job well, they 
must be given the skills to succeed. This will require training 
through a standardized civilian-certified program and 
appropriately compensated. The caregiver self-selection process 
occurs during the early phase of recovery; therefore benefits 
must be established while they are still upstream on active 
duty.
    And now we will hear from Kelly Hruska.

    STATEMENT OF KELLY HRUSKA, GOVERNMENT RELATIONS DEPUTY 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Hruska. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee, thank you for the 
opportunity to speak today about the exceptional family member 
program. We appreciate the legislation to establish an office 
for community support for military families with special needs 
in this year's NDAA. Our families are anxious for it to stand 
up and we are closely monitoring its progress. However, we must 
remember that our special needs families often require medical, 
educational, and family support resources. This new office must 
address all these various needs in order to effectively 
implement change. This new office will go a long way in 
identifying and addressing special needs, and we will look 
forward to working with you to remedy these issues as they 
arise.
    And now we will hear from Candace Wheeler.

   STATEMENT OF CANDACE WHEELER, GOVERNMENT RELATIONS DEPUTY 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Mrs. Wheeler. Chairwoman Davis, Ranking Member Wilson, and 
distinguished members of our subcommittee, our association has 
long realized the unique challenges our National Guard and 
Reserve families face and their need for additional support. 
Our Reserve Component families are often geographically 
dispersed, live in rural areas, and do not have the same family 
support programs as their active duty counterparts. However, in 
the past several years, great strides have been made by 
Congress and the services to help strengthen Reserve Component 
families. We thank you for these important provisions and ask 
that their funding be included in the baseline budget.
    We appreciate Congress's attention to the Yellow Ribbon 
program by including reporting requirements in last year's 
NDAA. To ensure that Yellow Ribbon services are consistent 
across the nation, we urge you to conduct oversight hearings as 
well. We also ask that the definition of family member be 
expanded to allow non-I.D. cardholders to attend these 
important programs in order to support their service member and 
gain valuable information. Although our association applauds 
the innovative behavioral health support programs for our 
Reserve Component families such as Military OneSource, TRICARE 
Assistance Program (TRIAP), and Military Family Life 
Consultants, we remain concerned that not all National Guard 
and Reserve families have mental health care services where 
they live.
    And now we will hear from Katie Savant.

    STATEMENT OF KATIE SAVANT, GOVERNMENT RELATIONS DEPUTY 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Savant. Chairwoman Davis, Ranking Member Wilson and 
distinguished members of this subcommittee, enhanced military 
spouse education and employment opportunities are critical to 
the quality of life of military families. The sudden halt of 
the DOD MyCAA program was a financial and emotional strain to 
nearly 137,000 spouses. We are pleased the program has been 
reinstated for those currently enrolled. MyCAA provides 
critical financial support to spouses through all levels of 
their career progression whether the spouse is new to the 
workforce or a mid-level professional. Military spouses feel 
empowered and recognized by DOD through this program.
    We ask this subcommittee to fully fund the program not only 
for currently enrolled spouses but for those who will need the 
funding in the future. Our military community is experiencing a 
shortage of medical, mental health, and child care providers. 
Many of our spouses would like to seek training in these 
professions. We encourage DOD to create portable career 
opportunities for spouses seeking in-demand professions. By 
providing the opportunity to grow our own, DOD will help 
alleviate provider efficiencies.
    Thank you for your support of service members and their 
families. We urge you to remember their service as you work to 
resolve the many issues facing our country. Working together we 
can improve the quality of life for all military families.
    We welcome any questions you may have.
    [The joint prepared statement of Mrs. Moakler, Dr. Cohoon, 
Ms. Hruska, Mrs. Wheeler, and Ms. Savant can be found in the 
Appendix on page 28.]
    Mrs. Davis. Thank you very much. I appreciate all of your 
comments.
    Perhaps before we start, I think one of the things that is 
so difficult, and I mentioned in my opening remarks briefly, is 
prioritizing among all these demanding issues that we have 
before us, and I know that is really difficult. We may try from 
time to time to see if we can do some of that. I think that 
part of the difficulty is we are not comparing apples to apples 
here, and I don't want to use that in a flippant way, but I 
think that it is very difficult to say, well, this is more 
important than that. And yet somehow in there we need to try to 
do important things to the best of our ability and I think that 
we look to you because you know the situation of our families 
far better and you are far closer to the families than we are 
individually here.
    And so as we go through if there is a way of helping us out 
with that issue, I think, it would be very helpful to do that.
    If I may just go to Ms. Savant for a second because you 
brought up MyCAA. We call it MICA here. I know that is probably 
not the best way to do it. But I wanted to just say as well 
that I think the reason that we were able to move so swiftly 
with this was because of the response of our military family 
members who reacted very quickly. They were alarmed and 
concerned and I think very upset when they saw initially that 
the program had been pulled at least temporarily. So we are 
very pleased to see that come back online.
    I am wondering as we deal with this, and you mentioned 
those spouses particularly, who perhaps did not have their 
applications in and we know will want to do that in the future, 
I am wondering how you might suggest that we go forward, what 
suggestions you might have to structure the program to fulfill 
the promise of these real educational opportunities and 
portable professions that we need desperately in the services 
in a fair and cost-effective manner. And I don't know if you 
have any thoughts about how to reduce the costs at all or how 
you see this coming together. Do you have some thoughts and 
suggestions?
    Ms. Savant. Sure. Chairwoman Davis, I would definitely say 
that costs are not something that is my expertise, but I would 
say that this is something that was initially open to all DOD 
military spouses. And as you know, the sudden halt was 
definitely detrimental to their education and career paths. We 
had students who not only were dropped out of courses but some 
had to take incompletes, and that can really impact their 
future career progression. So I think that it is great that DOD 
is doing a review of the program, but we do need to make sure 
that funding continues for military spouses who want to 
continue to pursue portable careers. It is something that maybe 
a spouse shouldn't use initially because they weren't expecting 
permanent change of station (PCS) orders to move, but they are 
this summer and they might be going to a new state where they 
are required to take new courses in order to continue their 
profession. This funding is critical to them. So I apologize I 
am not able to help with determining funding, but I do think 
that it is critical that we continue this program.
    Mrs. Davis. Does anybody else want to comment on that? 
Great.
    One of the larger areas that we deal with is pay raise, and 
over the last number of years, there has been a real attempt to 
provide an additional bump of a half a percentage point to 
bring military salaries more in line with the private sector. 
This year the proposal does not include that, and yet we know 
that it really is reflecting a raise but not the additional 
bump and partly because we have so many needs out there and I 
know that the Department of Defense is suggesting that we have 
come very close, but I would suggest that we are not quite 
there yet. Can you help us to see--we have about 11 years of 
history by which to judge these relatively minor advancements 
to pay levels and does it trump other issues in terms of the 
number one priority that families have? Are there other 
priorities that you think may really be more critical right 
now?
    Mrs. Moakler. We don't usually address pay issues as an 
organization, but I know as members of the military coalition 
we are in favor of a pay raise. And as long as there wasn't a 
great discrepancy as there was several years ago, we are very 
pleased of the fact that it has caught up to outside pay 
raises. But if we could focus on the mid-career folks because 
they are the ones that are getting out and so we would like to 
make sure that they have some incentive to stay in.
    Mrs. Davis. I have just a second, but can I ask along with 
those priorities as we look at that issue the Survivor Benefit 
Plan-Dependency and Indemnity Compensation (SBP-DIC) offsets, 
how that really fits into this? A tough question, I know. I 
understand that.
    Mrs. Moakler. We have long been supporters of the 
elimination of the DIC offset to the SBP, and we feel that that 
is an important way to respect both the wishes of the service 
member who had, for the most part, for retirees had paid into 
the SBP fund to provide for his family and that the DIC is a 
separate benefit. That is supposed to reimburse you for any 
injuries or the death of the service member, so that each has a 
different reason to be paid out, and so we really support that 
that be eliminated.
    Mrs. Davis. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, and again thank all of you 
for being here and I appreciate the individual testimony and I 
have never seen such brevity; so thank you very much.
    For any of you, I would like to ask--it has been mentioned 
in the testimony that there are redundancies in military family 
programs and some programs don't meet the needs of today's 
military families. Are there any programs existing today that 
in your opinion should be terminated? If so, what are they?
    Mrs. Moakler. Well, I think we need to look at the myriad 
of services that are provided by each of the services, and 
especially in the area of information and referral. It seems 
like people are starting up new programs to collect information 
from community sources and get them out there for military 
families. But there are so many areas to choose from that it 
gets confusing. So if there could be one list, the National 
Resource Directory is a good start, that it be a Purple list. 
We are all about having Purple programs for families. And not 
that they would lose their individual alternate but sometimes 
too many resources can be confusing.
    Mr. Wilson. And the Internet can be a real resource to help 
get through so you can find it for a particular community.
    Mrs. Moakler. Yes. You could put in your zip code and find 
out where those resources are.
    Mr. Wilson. Again, to me, it is exciting that they are so 
available technologically for families.
    Another recommendation has been to establish a unified 
joint medical command structure within DOD. Can you explain how 
this would be helpful?
    Dr. Cohoon. That would be me on this particular one. I 
handle health care for our organization. What we have talked 
about is right now what we are dealing with--the funding 
happens under three different services rather than as far as it 
being joint, and we are looking at what is happening with the 
National Capital region and how that is rolling out. And as we 
are looking at programs that are rolling out, sometimes the 
best practices aren't necessarily shared across services. And 
as we stand up at the National Capital region where you have 
Army and Navy working together, and down in San Antonio you 
have Air Force and Army working together, the ability to be 
able to share resources so you are purchasing the same 
equipment, you are teaching your staff as far as utilizing the 
same policies would go a long way as far as keeping down costs 
but also improving the quality of care through efficiencies but 
also as far as patient safety.
    Mr. Wilson. Another example would be the Uniform Services 
University, which is a joint service university and since one 
of my sons is a graduate, I know it is a great institution. So 
I hope we can possibly look into what you suggest.
    Dr. Cohoon. We look forward to working with you on that.
    Mr. Wilson. That would be great.
    Then again for anyone who would like to answer, it has been 
suggested that the system of multilayered case managers for 
wounded service members and their families may be aggravating 
the delivery of necessary services to the families. How would 
you streamline the process to make it more effective?
    Dr. Cohoon. What we are seeing, again, is all the services 
are rolling out their own programs and their own level of case 
managers. The Department of Veterans Affairs (VA) is doing the 
same thing. Also we have DOD doing the same thing. And our 
families are getting confused as far as who do you go to for 
what and when. So we have been asking for basically maybe a 
report to take a look, and I knew the GAO was looking at the 
federal recovery coordinators to see how effective they are 
being. But also we need to look at recovery care coordinators 
and everyone else.
    What we are finding is that the families sometimes aren't 
aware that certain case managers are available that they could 
utilize, i.e. the federal recovery coordinators, or that they 
are in the VA and that now they could be using the VA case 
managers, and instead, they are still utilizing the services on 
top of that.
    So there is a lot of great programs, but we want to make 
sure that we take a look that we haven't added so many on that 
it is getting confusing for the families.
    Mr. Wilson. Well, your organization serves such a vital 
function as a safety net and as a means of providing assistance 
to families. So I hope you all continue that effort, and I am 
particularly concerned about a person's going from DOD care to 
VA care, that that be as seamless as possible and without a 
hiccup so that people receive services with nobody to fall 
between the cracks. So thank you very much for your time.
    Mrs. Davis. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Madam Chairman and Ranking Member 
Wilson. And I do want to thank you ladies for your testimony, 
and it looks as if services for military families is in very 
good shape from what I have heard.
    You know, it is an old adage that it is not just the man or 
the woman in uniform that serves but the entire family, and I 
truly believe in that. In recognition for your role, our 
chairman recently, Mr. Ike Skelton, worked to have this year 
designated as the year of the military family, and while 
Congress has done much, there is still a lot more to be done. 
Now, the National Military Family Association has been a strong 
supporter of the reporting requirements in the 2010 National 
Defense Authorization bill, and as you know, this bill requires 
the Secretary of Defense to examine the housing standards used 
to distinguish between grades when setting housing allowance 
rates. Some complaints surrounding the notion that junior 
enlisted members and their families can be housed in apartments 
while town homes are adequate for mid-grade noncommissioned 
officers. Opponents of the standard believe all families should 
be housed in separate housing units, which is the general 
standard for the United States.
    I would like to focus on this matter with reference to the 
Marine buildup. I am the representative from the territory of 
Guam. And the current plan involves significant acquisition of 
our land in Guam in order to house the 8,600 additional Marines 
and their families. Due to the significant concern regarding 
the draft environmental impact statement, I have offered some 
proposed alternatives to the main bed-down location of the 
Marines. I have proposed using less land by housing Marines in 
vertical structures such as condominiums.
    I understand that we would all like to have a home and a 
yard but, in some cases, this is just not possible. So with 
that in mind, and I know--I don't know which one of you is a 
military housing expert, but with that in mind, could you 
comment on any concerns that you would have about building more 
vertical structures on Guam to house our Marine families? Could 
anybody give us some idea?
    Ms. Savant. Ma'am, I wouldn't consider myself an expert, 
but I can certainly try to answer that question for you. I 
definitely think that we need to look at the area where the 
housing is going to be, whether it is in Guam, whether it is in 
Japan, Hawaii, and we need to have standards that meet the 
standards of that community. If that is vertical housing in 
Guam, then that is the standards of that community. Certainly 
military families do like to have homes, but that is not always 
available in certain areas. In city dwellings there are high-
rise apartments, and I think as long as the dwellings are 
meeting the standards of the community and have all the safety 
features that are required, then those are reasonable standards 
to have.
    Ms. Bordallo. So as an association, if the standards are up 
to par, you wouldn't have any objection. Is that pretty much--
--
    Ms. Savant. Yes.
    Ms. Bordallo. All right. Thank you.
    Now one more question. I would like to get everyone's take 
on the implementation across this nation of home station 
mobilization and demobilization for our National Guard and 
Reserves. I am concerned that this is not occurring as Congress 
intended. I am wondering what your thoughts are on this process 
and what more we can do to make this a reality. As you all know 
it significantly degrades military readiness when we force 
families to travel to active duty locations far from their 
homes. So we need to maintain the readiness of our families by 
fully implementing a home station mobilization and 
demobilization.
    Mrs. Wheeler. Ma'am, we couldn't agree with you more.
    Ms. Bordallo. Mrs. Wheeler.
    Mrs. Wheeler. Yes, I am Candace Wheeler. And we agree, 
making sure that family has all the support that they have and 
not necessarily having them move during that period of time and 
giving them all the support. We see a lot of our Guard and 
Reserve actually serving as individual augmentees as well. So 
we need to make certain that those families have the support 
they need also. But, yes, we would support that.
    Ms. Bordallo. Thank you very much and I thank you for your 
service. It is very important the work you are doing.
    Mrs. Wheeler. Thank you.
    Mrs. Davis. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair and Ranking Member 
Wilson for having this important hearing. I thank all of you on 
the panel for everything you are doing.
    It is often said that there are a lot of divisions in this 
Congress on party lines, and there are. I think it is fair to 
say that Congressman Wilson and I probably don't agree on very 
much of anything when it comes to policy issues out there, but 
we actually both have very close personal family members who 
are serving at the moment, and that brings us together 
certainly on these issues. I think that is fair to say, and I 
think the Congressman would agree with that. So I want to thank 
you for what you are doing here.
    In Iowa, we have a lot of National Guard members, not 
unlike Madam Bordallo in Guam, and we come together on issues 
all the time to work as hard as we can for those Guard and 
Reserve----
    Ms. Bordallo. I have the most per capita.
    Mr. Loebsack. That is right.
    Reclaiming my time, at any rate, I am happy to hear, Mrs. 
Wheeler, in particular some of the things that are happening 
with respect to the Guard and Reserve. In the State of Iowa, we 
have 3,500 Guard members who are getting ready to deploy to 
Afghanistan and a number of them have had a number of 
deployments already, and a lot of us are very concerned, of 
course, about the families, about the children and about the 
spouses. In the State of Iowa the legislature and the Governor 
are trying to do some things with respect to spouses and 
employment, to try to deal with these multiple deployments and 
just a multitude of issues that come up with the Guard and 
Reserve. Again, active duty folks, they have certain specific 
issues. Everyone has the same issues--similar issues, 
obviously. General Orr, who is our adjutant general, he really 
is trying to place a lot of emphasis on readiness centers and 
armories as focal points for families for services and what 
have you. Health care, obviously another issue as well.
    I want to give you an opportunity, Mrs. Wheeler, just to 
elaborate a little bit with the time remaining on some of the 
things that you have been working on. I know you folks were 
wonderful in being very brief at the outset here, but I would 
just like to give you some more time to talk about what you are 
doing and what you think needs to be done for the National 
Guard families.
    Mrs. Wheeler. Thank you. I appreciate the time. We have 
seen a lot of support for our National Guard families in recent 
years, and we do appreciate Congress especially and the 
services stepping forward to help our Guard and Reserve 
families, whose challenges are different than our active duty 
families. We are seeing some innovative ways of helping. I 
mentioned a few in my opening. But there are some other things 
as well. There is something called Fort Rochester, which is a 
virtual community that is being stood up and I think it is a 
way of being able to support families. This is under the Army 
program. And I think that is very helpful to not only think 
that it has to be brick and mortar, that how do we get to our 
Reserve Component families? They do not necessarily live in the 
same geographic area. Like I said, many of them live in rural 
areas as well.
    So thinking in more in terms of how do we support them. 
There is been a lot of things in recent times. Some of the 
things have been in like the joint family support program, 
assistance program, the JFSAP. That has been very helpful as 
well.
    We have also seen the Joint Services Support, which is 
something you can go to online. A lot of these things are 
Internet based, but we need to remember we need to have touch 
points with families. It can't all be through the Internet, and 
we need to make certain that we are giving them that type of 
care. Military OneSource has been tremendously helpful to be 
able to have time for families to be able to talk with one 
another and to reach out and have that behavioral health 
support that they need, especially for our children. We are 
seeing that with our Guard and Reserve children that they are--
with our RAND study that we went through we are seeing that 
they are experiencing the same types of things, but it is very 
important for them to understand that they are a military 
family also.
    And in the beginning of this war, many of our Reserve 
Component families did not feel like military families. They do 
now. And we need to make certain that we are supporting our 
children and the caregiver. We have also realized that when the 
caregiver has the support they need, then the family does 
better, not only during the deployment but during the 
reintegration period as well.
    Mr. Loebsack. Thank you.
    And just to finish up, I couldn't agree more with what you 
are saying, and certainly as the Guard and Reserve become an 
increasing operational force, they are part of the military in 
that sense, very much a part of the military. So thank you very 
much. I appreciate that. Thanks to all of you.
    Thank you, Madam Chair. And I yield back.
    Mrs. Davis. Thank you, Mr. Loebsack.
    I want to turn to the behavioral health issues a little 
bit, and I know Dr. Cohoon--I think all of you have referenced 
that in some way. But one of the concerns that you have 
expressed is that while families see that their loved one in 
theater may be getting some support that the families, when 
they are trying to get appointments or trying to access some 
care, are having some difficulty. Is there a way that you can 
perhaps--if you want to clarify some of those concerns and what 
you would suggest. I think you have mentioned the fact that we 
have a lot of family members who might like to develop the 
skills to be part of the force of behavioral health specialists 
that are serving the military.
    But short of bringing those people into the fields right 
away, what do you think that we need to be focusing on? 
Compassion fatigue, you have mentioned, creating burnout. What 
is it that we should be focusing on? I might also ask you as 
you answer that question, whether you think that we have done 
as good a job as we should be in integrating with Veterans 
Affairs as well? I think there is a real lack there in terms of 
transition care.
    And I will be perfectly honest, I am not sure that we do as 
good a job just here in Congress in terms of integrating some 
of those discussions, but I also feel like there could be 
something more that you might suggest in how we can better work 
with the Veterans Administration to answer the needs of many of 
our families in transition.
    Dr. Cohoon. Thank you, Chairman Davis. In the beginning of 
the war, we really didn't have that large of a robust network, 
especially for mental health providers. What were in the 
military treatment facilities (MTFs) actually would forward 
deploy and then that left a gap that was in the MTF, but we 
really didn't have that large of a network in our civilian 
option. Plus there is also a general shortage of mental health 
providers across the country. Now that there has been added 
funding both for DOD and VA, they have been able to bring more 
providers on board as far as in the direct care system, but 
sometimes they don't necessarily understand our culture. It 
takes a little while for them to learn about military life. 
That happens too in our civilian network the same way.
    As the network becomes more robust, we need to make sure 
that the mental health providers that our families are exposed 
to actually understand our population and our culture, and that 
would make things a lot easier with them. Those that are 
forward deployed, our mental health providers, we need to make 
sure that we are taking care of them also, that they have time, 
dwell time, so that when they do come back from theater they 
actually have time with their families to reintegrate, and then 
when they come back as far as to help us that they are ready to 
help us so that the provider themselves has the opportunity as 
far as to recharge their batteries, and a lot of times we are 
not seeing that.
    With the mental health integration between DOD and VA, that 
is what keeps me up at night. That is what scares me the most. 
Because basically when the military service member decides to 
leave the military--Admiral Mullen has talked about assessing 
the service member to make sure they are ready. We need to 
assess the family too to see how they are doing because once a 
service member transitions over to the VA status, depending 
upon what is going on, the family may not qualify for a lot of 
different services. They can buy COBRA so they could keep 
TRICARE for 36 months. They can use the Vet centers.
    But for the most part, a lot of opportunities for them and 
access to care goes away. When we are looking at funding for 
both DOD and VA, we are maybe taking providers from the state 
health agencies which is maybe where families end up going 
because they no longer have health care coverage; so we need to 
make sure that all the systems are working together because we 
are not fighting over the same resources since we have a 
shortage.
    Mrs. Davis. I believe that we are supposed to be looking at 
that as a result of the last bill that went through, and I am 
just wondering whether--have you had any sense that that is 
moving along at all, in the VA? I think there was an 
authorization to look at these issues further than what we have 
done in the past; is that----
    Dr. Cohoon. Right. We appreciate any time that we are going 
to take a look at a program to see how well it is working or 
not working, and the VA is stepping up to the plate as far as 
wanting to bring in service members and their family when they 
are still active duty. We call it upstream. Then when they come 
in, then they are being assessed at that particular point and 
able to provide them services during that time. So that allows 
the family then to be introduced to the VA and to what sort of 
system of care is available and obviously we have seen the 
network increase tremendously as far as within the DOD TRICARE 
system.
    Mrs. Davis. Is there any sense that families would resist 
filling out surveys? We know that even the men and women who 
serve have some difficulty initially in wanting to be part of 
that for fear of not being able to go home or issues of stigma 
that seem to prevail. Have you heard anything? Are families 
really asking that they are surveyed and that there are forms 
that they could respond to that would suggest the level of 
their need?
    Dr. Cohoon. Stigma does exist even with our families for 
lots of different reasons. It is present in society as a whole, 
and so you are trying to break that particular cultural barrier 
on top of all of it. We really have been asking our families to 
be evaluated the same way that the service member is 
predeployment, during the deployment, and post-deployment just 
to see how they are doing. They were included in the Cohort 
Millennium Study, and we are looking forward to seeing what 
type of information we get from there. But we are really not 
getting the pulse of really how our families are doing.
    Our study did--had wonderful findings, but we are just 
scratching the surfaces and when the longitudinal pieces come 
out, we will be able to find out more and more information. But 
we have been asking that we start assessing how our families 
are doing. And even when the war winds down, we are also 
wanting to make sure that we have programs in place that we 
continue to, as far as we can, to bring more mental health 
providers on board and we keep surveying them on how they are 
doing.
    Mrs. Davis. What do you think is the best mechanism for 
doing that, then? I know we have telephone mental health where 
service members and perhaps you can tell me if their families 
as well would have the opportunity to access someone anywhere 
in the country who is there to be able to listen and to 
recommend some strategy, some treatment for them? Is that an 
important vehicle for that? How can we best assess----
    Dr. Cohoon. Well, telephone mental health is great because 
it helps Candace's population, which is the Guard and Reserve. 
If it is nonmedical care, then it doesn't make any difference 
as far as where you sit as far as physically and where you are 
providing care where that individual sitting. But if it is 
medical care, we are looking at geographical barriers as far as 
licensing, as far as being able to provide the medical care, 
and we have been asking for that to be looked at to see if 
there are ways in which we can open that particular door up. 
There are some wonderful programs coming out.
    There needs to be some better education to our families as 
far as what the programs do, why they should be utilized. And 
especially the TRIAP program, there are some great 
opportunities there, but our families, I think a little bit 
with stigma, but also as far as not really understanding this 
new concept, that they haven't really embraced it as much as we 
would like to see done.
    Mrs. Davis. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman. Again, thank all 
of you for what you are doing. And, Mrs. Wheeler, as a National 
Guard family ourselves, I had the privilege and opportunity of 
conducting premobilization legal counseling armory to armory 
for about 25 years, and as I look back, we were helpful but 
gosh, what is being done now and your organization has helped 
make it so much more meaningful and the family members truly 
understand now that their husbands or wives could be deployed 
overseas, not just in my state for hurricane recovery and 
relief. So thank you for what you do.
    Another issue that I am concerned about, the widows tax, 
the SBP-DIC offset. I am really concerned that a lot of people 
in our country do not know about this, and so if you all could 
explain how this is such a problem because I know it is, and 
any way that you can help us on legislation that is pending 
would be helpful too.
    Mrs. Moakler. Well, I think one of the major areas, as I 
mentioned before, retired service members choose to sign up for 
the survivor benefit plan and they pay a portion of their 
retired pay each month to provide for their spouse upon their 
death. So they have paid into that program. They may also be 
eligible because of wounds or conditions that they have because 
of their service. They may die from service-connected 
disabilities. Then their spouse would also be eligible for the 
dependency and indemnity compensation. Two different programs 
given for two different reasons. And that is why we believe it 
is unfair for the DIC to offset the SBP.
    Mr. Wilson. For many families we are talking about a 
thousand dollars a month?
    Mrs. Moakler. Yes.
    Mr. Wilson. And most Americans, you may be aware, are not 
at all aware, and people do understand what a thousand dollars 
means a month, particularly with children. So I hope you all 
keep raising the awareness so that good people like Susan Davis 
can make a difference.
    Also, another issue that I am concerned about is TRICARE. 
This is a terrific benefit for active duty, for Guard, and 
Reserve, but in some of the material that you all have provided 
to us you warn, which I think is correct, that this can be a 
hollow benefit and I am so concerned that be there are 
circumstances being created that can overwhelm the health care 
capabilities of our country. But on TRICARE in particular what 
recommendations do you have to make sure that this truly is a 
benefit that can be accessed by military families?
    Dr. Cohoon. We have been watching the Medicare 
reimbursement rate cut closely. As you know the TRICARE is 
tied--the payment is tied to the Medicare reimbursement rate, 
and as it drops down 21.2 percent we have been hearing from 
some providers that we may actually see them decide not to take 
our population, and this is not really the best time for us to 
be losing providers especially in the mental health field. We 
are also looking at our TRICARE contractors may be changing and 
we are looking at two out of three may possibly change. Of that 
that means that 66 percent of our providers will be up for 
renegotiation as far as either deciding to sign on for TRICARE 
or not.
    So you add that, the reimbursement rate possible cuts, and 
then national health care reform on top. We are wondering if 
given the reimbursement rate for TRICARE, if the provider will 
stay on board or not, and if they won't, especially in rural 
areas where there is a limited number of providers that are 
available to begin with, then you have a benefit, but then you 
are not able to access any doctors because they are not taking 
TRICARE. We hear on a regular basis that doctors are taking 
TRICARE, especially mental health, but when you call them they 
are no longer taking TRICARE patients.
    Mr. Wilson. And that is so crucial. I am the former 
president of the Mental Health Association; so this has been an 
issue that I care about and we have serious problems that need 
to be addressed. But we look forward to the suggestions that 
all of you have because I was struck by your comment of a 
hollow benefit. There are many people concerned about a free 
ticket, no show, that you have a card but nowhere to go. And we 
should be working together on how this can be beneficial and 
particularly in Guard and Reserve in faraway places.
    People commute--it is not uncommon--200, 300 miles across 
state lines to come to armories. So we have got a challenge. 
And I look forward to working with the chairwoman on this. 
Thank you.
    Mrs. Davis. Thank you, Mr. Wilson. I appreciate your 
raising that because I think we really do need to make certain 
that the providers are available and TRICARE has been actually 
recently successful in attracting physicians, but we remain 
concerned about that and the fact that I know that on a number 
of bases--I guess it is not necessarily just TRICARE--but where 
so many of the physicians are actually in theater who they had 
access prior to that and the community physicians have very 
much filled in a lot of those gaps. But you are suggesting that 
even though they may say they are taking patients, you are 
finding that that is not true. I think it would be interesting 
for us to know if you have some--I don't know whether it is 
necessarily statistics or even anecdotal information about 
that, it would be helpful for us to know and to have an 
opportunity to follow up as well. I would like to have a better 
picture of that.
    Dr. Cohoon. We have been using our Facebook as far as 
asking some information from those that have been following, 
especially with the Medicare cuts, are they hearing providers 
that are telling them that they are no longer going to be 
taking TRICARE? And I did ask the woman in our office, Bailey, 
that handles that, and we have pulled off some quotes as far as 
``this isn't good, wonder how it will affect those of us as 
reservists.'' ``The civilian doctors don't want to take TRICARE 
before the cuts. Now it is going to become a real problem in 
certain communities.'' And another wrote, ``so many sacrifices 
to ensure your family is being taken care of and now this.'' So 
they--as I mentioned in our oral, there are--this has 
heightened our concern as far as access. We haven't heard that 
providers are actually walking away, but we do hear that when 
our families do reach out that even though they are taking 
TRICARE patients, they are just full up, or if they go to the 
behavioral health provider list, the same thing as far as 
calling them and finding that they are just not available.
    Mrs. Davis. So it is compounded when there is a shortage of 
providers and then a concern, and I think we are all working to 
be sure that there are no cuts that the physicians will need to 
be anticipating; so that is something that we are working on.
    Dr. Cohoon. And we are wanting to make sure that those that 
come back from theater have time to be able to regroup so that 
when they do come back to take care of us, they are able, they 
are full, 100 percent up and running so that they can take care 
of us.
    Mrs. Davis. Thank you.
    One of the issues I think you have raised with respite 
care, whether it is child care or it is respite care for a 
loved one who is caring for a wounded service member, as we 
look at limited budgets across the board, I am just wondering 
whether you are hopeful that we can allow for some reasonable 
respite care even though in many ways we haven't answered the 
initial need for child care itself or for care--for some 
compensation for those who are caring for a loved one. How did 
we try to balance those needs?
    Dr. Cohoon. I will talk about the respite for the wounded 
and then I will have Kelly talk about respite as far as for the 
child care.
    In the National Defense Authorization Act, you included a 
service member compensation but there isn't any added respite 
care that is in there. Others--there isn't any training that is 
in there. And as we are looking at seamless transition of care, 
we want to make sure that whatever starts while they are active 
duty, as we call upstream, that it is smooth and runs into the 
VA. And the VA has some programs, aid and attendance, home 
health, those types of things, but our services are keeping our 
service members a lot longer than they ever did in the past. So 
by the time the service member transitions along with the 
caregiver there has been years sometimes as far as going on.
    So if the VA is going to set up some types of programs 
which the House and Senate have passed which include respite 
care, include training and include compensation, we would want 
to make sure that these benefits--the caregiver can start 
giving those benefits a lot earlier along, so that by the time 
they have reached the VA we are not looking at someone that has 
been totally burned out. Because they have walked away from 
their employment, a lot of them. If it is mom or dad they may 
not have health care. They may no longer have a job. That is 
why we have been advocating for that particular piece. We 
understand that there is limited resources as far as funding. 
We are talking a small population that really could benefit 
from these services and we really want to make sure that the 
benefits we put together are seamless and they start upstream 
where the caregiver actually is recognized and starts their job 
and continues on without any bumps in the system into the 
veteran status.
    And I will let Kelly talk about the child care.
    Ms. Hruska. There are several available programs for 
respite care for caregivers when a service member is deployed. 
There are Guard and Reserve programs and programs for active 
duty both on the installation and for those who are 
geographically dispersed. Those programs are run through the 
NACCRRA, the National Association of Child Care Resource and 
Referral Agencies. In this year's NDAA, Congress called for a 
study to see if the program is adequately funded and if it is 
being utilized. We are anxious to see the results of that study 
and whether or not we think it is important----
    Mrs. Davis. Do you know when that is supposed to be 
available?
    Ms. Hruska. I know GAO is just starting it; so we are 
hoping for it by the end of the fiscal year.
    Mrs. Davis. Thank you. Do we need to push a little harder?
    Ms. Hruska. That would be helpful. We would appreciate 
that. But we are anxious to see the results of the study to 
make sure that families know about it, are they utilizing it, 
and if there is an increase necessary, where is it required?
    Mrs. Davis. Thank you. Also, you mentioned, I think, Ms. 
Moakler, the summit on children's issues in May, and I am 
wondering what you hope is going to come out of that summit.
    Mrs. Moakler. Well, we hope to bring together great minds 
and come up with some action items that would pinpoint how we 
can take the programs we have and make them work better for 
both our caregivers and our children and also to see if we have 
missed any program. And we are going to have a two-day summit.
    First everyone is going to come together and come up with 
some action items. And then we are bringing more people in the 
second day to look at those and kind of kibitz and say, well, 
have you thought of this, have you thought of this, so that it 
is not just a one stop but that we pull as many folks as we can 
into the room to discuss this issue.
    Mrs. Davis. Is there anything about the RAND study that 
actually surprised any of you or that you felt really provided 
you with some additional information that you wouldn't have had 
otherwise?
    Mrs. Moakler. Well, I think around the office we call it 
the ``duh'' study. You know, it is something that we have all 
known through anecdotal evidence, but when we actually have the 
research to back it up that really helps us focus in on what 
needs to be done.
    Kelly, did you have something?
    Ms. Hruska. Well, as Kathy said, I just want to reiterate, 
I mean so many times we hear the anecdotal stories, and you 
asked us, well, how widespread is this? I think this gives us 
that statistical quantitative data to back up those anecdotal 
stories and that is very important. I think the longitudinal 
information is going to provide us much more information. And 
so we are anxious to share that with you when that becomes 
available.
    Mrs. Wheeler. One of the things I thought was striking was 
the fact that it is the total time of deployment, time apart 
during that period of time, and we are really looking at a 
three-year period of time. So our families are finding that the 
longer they are separated the more problems they are having. 
One of the other things I thought was fascinating was the 
reintegration piece for girls. Having raised a daughter myself 
and having had her father deployed, I think that was an 
interesting thing.
    So we have always been looking at deployment. Maybe we need 
to be spending a little more time on the reintegration, though 
we all know reintegration happens, before the reintegration 
happens, so making sure that the family understands what they 
might be moving towards, so giving them those types of support 
both before deployment and during deployment. That is what we 
are seeing with our Yellow Ribbon programs for our Guard and 
Reserve families, that that is helping them get ready, that 
they're learning skills as they move along.
    Dr. Cohoon. I would say looking at the fact that the 
caregivers--how their mental health is really affects the well-
being of the whole entire family. And that brings us back to 
wanting to make sure that we really are assessing how our 
families are doing. You had asked me earlier as far as surveys, 
the Army, when I was over in Germany, they actually asked no 
matter what you are coming in for a series of questions to see 
really how you are doing.
    So it could be just as easy as that, that every time you 
have made a doctor's appointment, we just ask how you are 
doing.
    Mrs. Davis. One of the things that I picked up at a session 
recently with some of the wives, spouses of our SEALs, and 
Special Operations folks is that they had a lot of concern 
about additional help with homework and tutoring, and I was 
surprised. I was hearing that a lot. And I didn't pick any of 
that up on surveys necessarily, that there is such a concern on 
the part of the member who is serving that the kids may not be 
getting as much help, and obviously if you have several 
children, it is very hard for mom or dad, even if it is a 
single dad to try to provide that. Do you know whether that 
might be part of the focus? And I would really be interested in 
knowing if there is anything that we could or should be doing.
    I understand that there is a network online for some 
homework assistance and help, and I think maybe some of our 
families are aware of that. It sounded to me that a lot of them 
are not. Is this an area that you have explored with families 
and is there anything we can do to help?
    Mrs. Wheeler. I would be happy to answer that. One of the 
interesting programs that has been out for a while is called 
Tutor.com, and it actually is now being offered to all military 
families, which is wonderful. It had started with the Army and 
now it is being available for our military families. It is a 
24/7 program. All of the--actually the tutors are trained and 
have certain certification in order to do this. We see this as 
a couple wins. Not only is this helpful for families, helpful 
for the service member in alleviating that concern; it is also 
an opportunity for spouses to look at portable careers. So we 
see this as a double edge, being able to actually help take 
care of our own which is marvelous. But this is a great program 
that has been moving forward. There is another program called 
the Scholarships for Outstanding Airman to ROTC (SOAR) program, 
which is offered by Military Impacted Schools Association. It 
is an online program as well. It is excellent and very, very 
helpful to families.
    So there are resources out there. I think a lot of it is 
making certain that they know they are available. The Tutor.com 
is new to all military families, and we have certainly been 
publicizing that and will continue to do so. So has the 
Department of Defense. And that is being funded for all 
families by the Department of Defense. So it is a great step in 
the right direction. Thank you.
    Mrs. Davis. That is fine. Thank you. I appreciate that. And 
just finally, I think Secretary Gates has said that there is a 
process looking forward to Don't Ask Don't Tell, that military 
families would be consulted. How do you think that would be 
helpful and what role do you all see playing in that?
    Mrs. Moakler. Well, first, let me state that the National 
Military Family Association has no position on Don't Ask Don't 
Tell, but we are pleased that the working group that Secretary 
Gates has appointed has been charged to look at the true views 
and attitudes of our service members and their families, and we 
are happy that they are going to look at both the policies that 
affect the service members and their families concerning 
eligibility for benefits and we hope that they will seek input 
from the broader military community, that they don't just focus 
on the gay and lesbian community but that they look at families 
across the board and our association has long promoted the need 
for support of all families during deployments and we feel that 
there are some families that are not getting the resources they 
need because of fear of disclosure, and so they are having to 
suffer in silence.
    Mrs. Davis. Thank you. I appreciate that.
    Thank you all very much. We are so glad you are out there. 
You are making such a great contribution. I know the military 
families are pleased that they have such strong advocates and 
we certainly want to continue work with you in every way 
possible. So stay in touch and let us know when you have some 
areas where you think we should give additional time and 
attention.
    Thank you very much for being with us.
    [Whereupon, at 6:37 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 15, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7699.001
    
    [GRAPHIC] [TIFF OMITTED] T7699.002
    
    [GRAPHIC] [TIFF OMITTED] T7699.003
    
    [GRAPHIC] [TIFF OMITTED] T7699.004
    
    [GRAPHIC] [TIFF OMITTED] T7699.005
    
    [GRAPHIC] [TIFF OMITTED] T7699.006
    
    [GRAPHIC] [TIFF OMITTED] T7699.007
    
    [GRAPHIC] [TIFF OMITTED] T7699.008
    
    [GRAPHIC] [TIFF OMITTED] T7699.009
    
    [GRAPHIC] [TIFF OMITTED] T7699.010
    
    [GRAPHIC] [TIFF OMITTED] T7699.011
    
    [GRAPHIC] [TIFF OMITTED] T7699.012
    
    [GRAPHIC] [TIFF OMITTED] T7699.013
    
    [GRAPHIC] [TIFF OMITTED] T7699.014
    
    [GRAPHIC] [TIFF OMITTED] T7699.015
    
    [GRAPHIC] [TIFF OMITTED] T7699.016
    
    [GRAPHIC] [TIFF OMITTED] T7699.017
    
    [GRAPHIC] [TIFF OMITTED] T7699.018
    
    [GRAPHIC] [TIFF OMITTED] T7699.019
    
    [GRAPHIC] [TIFF OMITTED] T7699.020
    
    [GRAPHIC] [TIFF OMITTED] T7699.021
    
    [GRAPHIC] [TIFF OMITTED] T7699.022
    
    [GRAPHIC] [TIFF OMITTED] T7699.023
    
    [GRAPHIC] [TIFF OMITTED] T7699.024
    
    [GRAPHIC] [TIFF OMITTED] T7699.025
    
    [GRAPHIC] [TIFF OMITTED] T7699.026
    
    [GRAPHIC] [TIFF OMITTED] T7699.027
    
    [GRAPHIC] [TIFF OMITTED] T7699.028
    
    [GRAPHIC] [TIFF OMITTED] T7699.029
    
    [GRAPHIC] [TIFF OMITTED] T7699.030
    
    [GRAPHIC] [TIFF OMITTED] T7699.031
    
                                  <all>

</pre></body></html>
